September 8, 1995

IG-1

INFORMATION:
Report on "Audit of Bonneville Power Administration's Energy Resource
Programs"


The Secretary


BACKGROUND:

Bonneville Power Administration (Bonneville) was established to market and
transmit hydroelectric power produced at the Bonneville Dam. Since then,
Bonneville has acquired additional resources and, today, markets the power
from 30 Federal dams and 1 non-federal nuclear plant in the Pacific
Northwest. In April 1994, Bonneville entered into a 20-year contract to
purchase the electrical output from a natural gas fired combustion turbine
facility at a total cost of about $2.2 billion. Bonneville's resource
acquisitions were to be made only after its planning process showed that
demand for its electricity would exceed its available resources. In
addition, when acquiring new resources, Bonneville was responsible for
securing contract terms which ensured that costs were as low as reasonably
possible.

DISCUSSION:

We conducted the audit to determine if Bonneville was spending excessive
amounts to purchase electricity from natural gas fired combustion turbine
facilities. We found that Bonneville needed to renegotiate the contract and
improve its acquisition process.

Bonneville contracted to purchase the output from a natural gas fired
combustion turbine facility at excessive cost, and the electricity was not
needed. This occurred because Bonneville's contract did not reflect current
industry conditions and Bonneville forecasted its need for new energy
resources based on incomplete data. As a result, Bonneville's cost of
electricity from this resource will exceed its revenue by $20.9 million in
1997; in addition, Bonneville's excess of costs over revenues will amount to
$146.8 million by 2001. Bonneville agreed with the finding and
recommendations, and stated that it would no
longer need the output of the combustion turbine and several other projects.
Consequently, Bonneville has taken actions to renegotiate several resource
acquisition contracts.


                                                  /s/

                                             John C. Layton
                                             Inspector General

Attachment

cc:    Deputy Secretary
       Under Secretary
***************************************************************
**This document is an ASCII formatted version of a printed   **
**document. The page numbers in this eletronic version may **
**not be in the same order as the printed document. The      **
**printed document may also contain charts and photographs   **
**which are not reproduced in this electronic version. If    **
**you require the printed version of this document, contact **
**the Office of Inspector General (IG-1), Department of      **
**Energy, 1000 Independence Avenue, SW, Washington, D.C.     **
**20585 or call Wilma Slaughter at (202) 586-1924.           **
***************************************************************




U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL




AUDIT OF BONNEVILLE POWER ADMINISTRATION'S
ENERGY RESOURCE PROGRAMS



The Office of Inspector General wants to make the distribution of its reports
as customer friendly and cost effective as possible. Therefore, this report
will be available electronically through the Internet five to seven days
after publication at the following alternative addresses:

Department of Energy Headquarters Gopher
gopher.hr.doe.gov

Department of Energy Headquarters Anonymous FTP
vm1.hqadmin.doe.gov

Department of Energy Human Resources and Administration Home Page
http://www/hr.doe.gov/refshelf.html
Your comments would be appreciated and can be provided on the Customer
Response Form attached to the report.

This report can be obtained from the
U.S. Department of Energy
Office of Scientific and Technical Information
P.O. Box 62
Oak Ridge, Tennessee 37831




Report Number:   DOE/IG-0379    Western Regional Audit Office
Date of Issue:   September 8, 1995      Albuquerque, New Mexico 87185



AUDIT OF BONNEVILLE POWER ADMINISTRATION'S
ENERGY RESOURCE PROGRAMS


TABLE OF CONTENTS




         SUMMARY 1

PART I   - APPROACH AND OVERVIEW        2

         Introduction   2

         Scope and Methodology   2

         Background     3

         Observations and Conclusions   4


PART II - FINDING AND RECOMMENDATIONS 6

         Bonneville's Energy Resource Programs 6


PART III - MANAGEMENT AND AUDITOR COMMENTS     12

PART IV - OTHER MATTERS          15

         APPENDIX A     16



U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL
OFFICE OF AUDIT SERVICES

AUDIT OF BONNEVILLE POWER ADMINISTRATION'S
ENERGY RESOURCE PROGRAMS


Audit Report Number:    DOE/IG-0379


SUMMARY

        The Bonneville Power Administration (Bonneville) must ensure that the
costs of its contracts for energy resources are as low as reasonably possible
and that the resources are needed. During the audit, we reviewed
Bonneville's energy resource programs and focused on its purchase of
electrical output from natural gas fired combustion turbines. The objective
of this audit was to determine if Bonneville paid excessive costs to acquire
the electrical output from combustion turbine facilities.

        The audit showed that Bonneville contracted to purchase the output
from a combustion turbine facility at excessive cost, and that the
electricity was not needed. The cost of the electricity under this contract
exceeded the amount of revenue Bonneville could obtain by selling it.
Bonneville estimated it would operate the generation facility for only 6
months of the year; the contract, however, required Bonneville to pay the
fixed costs of the facility during the other 6 months. Consequently, the
cost of the electricity plus the fixed costs in the first year of the
contract would exceed revenues by $20.9 million. The contract also contained
cost escalators that exceeded the rate of inflation. These cost escalators
combined with the excessive initial cost resulted in projected excessive
costs of $146.8 million in the first 5 years of the contract. Finally, the
contract was not needed due to competition from similar facilities and a
desire by customers to diversify their sources of electricity.

        Management agreed with the finding and recommendations and is pursuing
options to renegotiate the contract.

                                             (Signed)

                                      ___________________


PART I

APPROACH AND OVERVIEW

INTRODUCTION

        In 1992, the Office of Management and Budget issued a memorandum
outlining its concerns about Bonneville Power Administration's (Bonneville)
energy resource programs. The memorandum stated that Bonneville's energy
resource programs would unnecessarily increase Bonneville's costs and may
have an adverse environmental impact. Despite these concerns, in April 1994,
Bonneville entered into a 20-year contract to purchase the electrical output
from a natural gas fired combustion turbine facility at a total cost of about
$2.2 billion. The objective of this audit was to determine if Bonneville was
spending excessive amounts to purchase electricity from natural gas fired
combustion turbine facilities.

SCOPE AND METHODOLOGY

        The audit was performed from August 15, 1994, to April 5, 1995.
Information about energy resource programs and combustion turbine facilities
was obtained from Bonneville, the Pacific Northwest Electric Power and
Conservation Planning Council (Council), and public utilities commissions.
In addition, we interviewed officials at Bonneville Headquarters and the
Richland, Washington Field Office to determine reasonable costs for and
projected outputs of Bonneville's generating resources. Meetings were also
held with officials at the Council and public utilities commissions in
Washington and Oregon to discuss requirements for building electricity
generating facilities and to obtain information on those generating
facilities planned for the region.

        The audit focused on acquisitions of electrical output from natural
gas fired combustion turbines. We reviewed Bonneville's electricity supply
and demand data which was derived from Bonneville management reports and its
utility customers as well as laws and regulations that governed Bonneville's
energy resource acquisitions. In addition, we interviewed Bonneville's
management to gain an understanding of procedures for forecasting and
acquiring energy resources. Further, our analysis of Bonneville's costs for
acquiring electrical output from combustion turbine facilities was compared
to information on similar combustion turbine facilities owned by large,
privately owned utilities because these utilities are in direct competition
with Bonneville.

        The audit was made according to generally accepted Government auditing
standards for performance audits and included tests of internal controls and
compliance with laws and regulations to the extent necessary to satisfy the
audit objective. Accordingly, we assessed the significant internal controls
which would minimize the cost of Bonneville's energy resource acquisitions.
Our assessment consisted of reviewing the internal control procedures and
practices used to forecast and acquire energy resources. Because our review
was limited, it would not necessarily have disclosed all internal control
deficiencies that may have existed at the time of our audit. We did not rely
on computer generated data to satisfy the objective of this audit.

        An exit conference was held with the Manager, Non-Federal Projects on
July 10, 1995.

BACKGROUND

        The Pacific Northwest Electric Power Planning and Conservation Act
(Power Act) of 1980 was created to help ensure that the region (Washington,
Oregon, Idaho, Montana, and Wyoming) had an efficient and adequate power
supply. Bonneville, which provided about half the electricity in the region,
was established to market and transmit hydroelectric power produced at the
Bonneville Dam. Since then, Bonneville has acquired additional resources
and, today, markets the power from 30 Federal dams and 1 non-federal nuclear
plant in the Pacific Northwest. Bonneville's resource acquisitions were to
be made only after its planning process showed that demand for its
electricity would exceed its available resources.
        In 1994, Bonneville entered into a 20-year contract to purchase all
the electrical output from a large natural gas fired combustion turbine
facility. Combustion turbines use a jet engine fueled by natural gas to
power a generator. Natural gas fired combustion turbine facilities have
become an attractive source of electricity for several reasons. Decreasing
natural gas prices and recent improvements in the combustion turbine
technology have made them more affordable. In addition, these facilities are
desirable because they can generate electricity almost continuously,
requiring only a few weeks downtime for maintenance annually. These
facilities can also be constructed in about 2 years, which is quicker than
the construction of most generating resources presently used in the region.

        Large natural gas fired combustion turbines generate about 240 average
megawatts (aMW) of electricity. The term aMW refers to a unit of electrical
production over a year. It is equivalent to the continuous use of 1,000
kilowatts of energy for a year or 8,760,000 kilowatt hours. (A typical home
in the Pacific Northwest consumes about 20,000 kilowatt hours of electricity
per year.)

        Although this facility could technically produce 240 aMW, Bonneville
currently plans to operate the facility for 6 months per year, thus producing
only 120 aMW. For the remaining 6 months, the facility's available extra
capacity would allow Bonneville to charge higher rates for hydroelectric
power that has historically sold for less. However, the timing and quantity
of that hydroelectric power is uncertain, so it has historically been sold on
the spot market as surplus. The excess capacity of the combustion turbine
could be combined with this cheap hydroelectric power allowing Bonneville to
sell the power on a firm contract at a considerably higher price.

OBSERVATIONS AND CONCLUSIONS

        While the extra generating capacity made available by the new
combustion turbine facility will increase revenues, the audit disclosed that
Bonneville's costs will increase by an even greater amount. In the
contract's first year, 1997, for example, Bonneville's revenues will be about
$49.1 million greater than if the turbine facility were not available. The
contract, however, will require Bonneville to pay about $70 million for the
additional capacity. The net difference represents excessive costs of $20.9
million in the first-year. Built-in annual cost increases that far exceed
expected inflation rates will almost certainly produce additional excessive
costs, perhaps as much as $146.8 million by 2001. Moreover, excessive annual
costs and increases will continue for the life of the 20-year contract.
These excessive costs will occur because Bonneville signed the contract more
than 2 years after completing most of its financial analyses and because it
forecasted its need for this facility using incomplete data. During that 2-
year period, market conditions had changed dramatically. These market
changes made other low cost resources available to Bonneville's customers and
caused some customers to reduce their demand for Bonneville's power.

        We recommended that Bonneville base its future resource acquisition
decisions on up-to-date analyses of expected project revenues and costs, and
on comprehensive market analyses. This recommendation is especially
important in light of Bonneville's Resource Contingency Programs which are
options to purchase the output from five similar combustion turbine
facilities. We also recommended that Bonneville continue to explore the
possibility of renegotiating the current contract to achieve at least break-
even terms. By implementing these recommendations, Bonneville's future
contracts should be more fiscally responsible. In addition, if Bonneville
successfully renegotiates the current contract, at least some of the expected
$146.8 million in excessive costs could be avoided.

        Bonneville has recognized the problems with its resource acquisition
and is currently re-examining the contract. During the audit, Bonneville
initiated a review of its energy resource acquisitions in an effort to cut
costs. The officials who reviewed this contract agreed that the costs of the
electricity will exceed the expected revenue. These officials are currently
pursuing various options for renegotiating the contract.

        Our finding relating to Bonneville's energy resource acquisitions
disclosed material internal control weaknesses that management should
consider when preparing its yearend assurance memorandum on internal
controls.

PART II

FINDING AND RECOMMENDATIONS


Bonneville's Energy Resource Programs

FINDING

        The Pacific Northwest Electric Power Planning and Conservation Act
required that Bonneville Power Administration's contracts for the acquisition
of needed resources contain terms and conditions that would ensure that costs
were as low as reasonably possible. However, Bonneville contracted to pay
excessive costs for electrical output that was not needed from a natural gas
fired combustion turbine facility. This occurred because the terms of the
contract did not reflect current industry conditions and Bonneville
forecasted its need for new energy resources based on incomplete data. We
estimated that in 1997, the first year of turbine operations, the cost of the
electricity bought will exceed the revenue Bonneville can obtain from
marketing it by $20.9 million, and Bonneville's excess of costs over revenues
will amount to $146.8 million by 2001.

RECOMMENDATIONS

        We recommend that the Administrator and Chief Executive Officer,
Bonneville Power Administration:

1. Require that future resource acquisition decisions are based on up-to-
date analyses of expected project revenues and costs;

2. Require, prior to the acquisition of future resources, current
comprehensive market analyses, including a determination of resources planned
for the region and their effect on the demand for Bonneville's electricity;
and,

3. Attempt to renegotiate the terms of the contract so that the price paid
for electrical output from the turbine facility does not exceed expected
revenues from the sale of that electricity.

MANAGEMENT REACTION
Management concurred with the finding and recommendations, and began taking
corrective actions. Part III of the report provides detailed management and
auditor comments.


DETAILS OF FINDING

        Bonneville is responsible for taking actions consistent with the Power
Act. The Power Act was adopted to ensure that the Northwest had an efficient
and economical power supply and authorized Bonneville to acquire energy
resources to meet the region's needs. After receiving approval from the
Pacific Northwest Electric Power and Conservation Planning Council and
demonstrating compliance with applicable environmental regulations,
Bonneville was allowed to enter into contracts to acquire additional
electricity resources. However, the Power Act required that Bonneville's
resource acquisition contracts contain terms and conditions ensuring that
costs were as low as reasonably possible and that the additional power was
needed.

CONTRACT TERMS

        Bonneville contracted for electrical output from a natural gas fired
combustion turbine facility at terms that were not as low as reasonably
possible. The terms will, in fact, cause Bonneville to incur excessive costs
in the first year and incur increasing amounts of excessive costs in future
years. Furthermore, Bonneville did not need the additional electricity.

Electricity Costs and Fixed Costs

        Contract terms required Bonneville to pay costs for electricity that
exceeded expected revenues from selling that electricity. In 1997,
Bonneville would pay approximately $44 million for an estimated 120 aMW of
electrical output from the combustion turbine facility over a 6-month period.
At proposed 1996 rates, which we used to estimate 1997 rates, Bonneville
would sell this electricity for about $29.8 million. Operating costs for the
6-month period, therefore, would exceed revenues by $14.2 million.

        Additional excessive costs would be incurred during the estimated 6-
month period when the turbine facility was not operating. During this
period, the turbine facility's available extra capacity would allow
Bonneville to charge higher, "guaranteed" rates for its hydroelectric power -
- power that is normally sold at lower rates because its availability is not
entirely predictable. Accordingly, Bonneville concluded it could increase
hydroelectric revenues by $19.3 million, the difference between selling 120
aMW of hydroelectricity at guaranteed rates versus non-guaranteed rates. The
turbine facility contract, however, required Bonneville to pay fixed costs of
approximately $26 million during the 6-month period. Bonneville's excessive
costs during the period when the turbine facility would not operate, then,
will total $6.7 million.

Increasing Costs

        Contract costs for electricity were unreasonably high in two ways.
First, the contract contained an electricity cost escalator that averaged 5.2
percent per year -- about twice the rate of inflation -- during the first 5
years of the contract. Second, over the same 5-year period, the contract
called for fixed costs to increase at about 6.4 percent per year. This fixed
cost escalator far exceeded economic inflation, as measured by the Consumer
Price Index (CPI), which was only 2.4 percent when the contract was signed.
The combination of the two factors caused electricity costs to be high in
1997 and increasingly escalate in future years.

Contract Not Needed

        Bonneville did not need any of the electrical output from this
facility because the demand for its electricity is decreasing. For example,
Bonneville had about 130 utility customers and sold about 8,460 aMW of
electricity in 1994. During the audit, however, seven of Bonneville's
utility customers announced that they wanted to buy electricity from other
suppliers. These seven customers purchased about 1,330 aMW of Bonneville's
electricity (about 16 percent of sales) in 1994. In fact, two of the largest
of these utility customers announced that they would buy about 215 aMW less
from Bonneville in 1995. Furthermore, one independent power producer in the
region recently offered 5-year contracts to sell electricity to five
additional Bonneville customers at prices below Bonneville's guaranteed
rates. Some of these customers were reportedly seeking to diversify their
sources of electricity rather than continue the practice of relying primarily
on a single source for all their electricity.

        Bonneville's customers may also have wanted to avoid rising costs. In
October 1993, Bonneville increased its rates by about 15 percent and, in
October 1995, will again increase them by another 4 percent. These increases
have brought Bonneville's rates to the point where they are roughly
equivalent to those of the competition. Any future increase, therefore,
would give even more of Bonneville's competitors a price advantage over
Bonneville.

REASONS FOR INCURRING EXCESSIVE COSTS

        Bonneville incurred these excessive costs because it neither revisited
nor updated contract terms to reflect current industry conditions and trends
before signing the contract. Industry conditions had changed significantly
from the beginning of negotiations until the contract was signed. In
addition, Bonneville's need for the facility was based on incomplete data
because it did not identify the construction of
similar facilities by competitors. To its credit, Bonneville has recognized
that this contract contained excessive costs and has taken steps to
renegotiate the terms.

Changes in Industry Conditions

        Over 2 years passed from the beginning of negotiations until the
contract was signed. According to management officials, Bonneville began
negotiating the contract in 1991 and, in July 1992, issued a Letter of Intent
to purchase the output of the generating facility. The Letter of Intent was
necessary because, before Bonneville could sign the contract, it needed to
obtain approval from the Council and demonstrate compliance with applicable
environmental requirements. By April 1994, these actions were completed and
Bonneville signed the 20-year power purchase contract with terms that were
essentially unchanged since 1992.

        Market conditions, however, had changed significantly. Electricity
rates had decreased because natural gas fuel costs, which comprise about 66
percent of the costs of generating electricity, had decreased. Combustion
turbine facilities of this size use about 45 million cubic feet of natural
gas per day. The market price for natural gas when Bonneville signed the
contract was about $1.65 per thousand cubic feet. At that time, industry
analysts forecasted annual price increases of about 3 percent which would
have resulted in natural gas prices of approximately $1.80 per thousand cubic
feet in 1997. However, Bonneville agreed to pay $2.23 per thousand cubic
feet in 1997, and agreed to escalate gas costs at an average rate of 5.5
percent during the contract's first 5 years. The following chart shows how
the difference between the industry forecasts and Bonneville's contract
affects costs:


INDUSTRY
BONNEVILLE

EXCESS COST

YEAR
FORECASTS
CONTRACT
DIFFERENCE
PER DAY

1997
$1.80
$2.23
$0.43
$19,350

1998
$1.85
$2.35
$0.50
$22,500

1999
$1.91
$2.48
$0.57
$25,650

2000
$1.97
$2.61
$0.64
$28,800

2001
$2.03
$2.76
$0.73
$32,850


If Bonneville had availed itself of these projections, it would have
recognized that the contract prices were not as low as reasonably possible.
        During the negotiation period, both electricity costs and fixed costs
for combustion turbine facilities also decreased because of technological and
production improvements. For example, combustion turbines became more
efficient so that they used less natural gas and therefore, produced cheaper
electricity. Additionally, from 1991 through 1994, the initial capital cost
of a completed combustion turbine facility decreased by about 30 percent.
Furthermore, economic inflation, as measured by the CPI, decreased from an
average of 4.6 percent in 1990 and 1991 to about 2.4 percent in 1994.

Competition from Similar Facilities

        Bonneville also did not fully consider the effect of its competitors'
actions on the demand for its electricity. Bonneville's forecasts did not
reflect the extent to which competitors were planning and building similar
facilities. As combustion turbines became more affordable, large utilities
and independent power producers planned and built their own generating
facilities. These large utilities and independent power producers were also
offering inexpensive electricity to Bonneville's customers. Bonneville,
however, did not adequately account for five of these combustion turbine
facilities which were either planned or under construction. Bonneville
believed, for example, that one proposed facility had no customer for its
electricity and, therefore, would not be built. However, we visited the
construction site and found that the facility was, in fact, under
construction.

Current Status

        To its credit, Bonneville has recognized that the turbine facility
contract contained excessive costs and is currently re-examining the
contract. When Bonneville began negotiating in 1991, it anticipated an
increasing demand for electricity throughout the region and expected to be
the sole supplier of its customers' portion of those increases. During the
audit, however, Bonneville came to realize that, as an electricity supplier,
it had competition and its customers had choices. Accordingly, Bonneville
officials acknowledged that Bonneville now needs to carefully consider how
resource costs will affect electricity sales revenue. These officials agreed
that the costs of the electricity from this facility will exceed the revenue
it will generate and are currently pursuing various options for renegotiating
this contract.

IMPACT OF THE COMBUSTION TURBINE FACILITY

        Bonneville will pay excessive costs under this contract which will
increase annually. In 1997, Bonneville will pay $20.9 million in excessive
costs. With annual electricity and fixed costs increasing 5.2 percent and
6.4 percent, respec-
tively, these excessive costs will increase significantly. During the first
5 years of this contract, for example,



Bonneville will pay a total of $146.8 million in excessive costs (see
Appendix A). Also, as shown below, Bonneville will incur excessive costs for
the duration of this 20-year contract.
Bonneville initially agreed with our recommendation to renegotiate the
contract so that the cost of the combustion turbine facility did not exceed
the revenues produced by it. However, as conditions changed and Bonneville
became aware of the magnitude of its load loss, a decision was made that the
output of the combustion turbine was no longer needed and that price was not
the issue.

PART   III

MANAGEMENT AND AUDITOR COMMENTS


        Bonneville management agreed with our recommendations and the
estimated monetary impact of the report. Management's comments and our
responses follow.

COMMENTS ON RECOMMENDATIONS

Recommendation 1. Require that future resource acquisition decisions are
based on up-to-date analyses of expected project revenues and costs.

        Management's Comments. Management concurred. Bonneville said that
effective immediately, it required a comprehensive cost-benefit analysis
process for all new resource purchases that includes a forecast of expected
market conditions. If there is a significant time period between initiating
contract negotiations and signing contracts, the original assumptions will be
revisited prior to entering into the contract to determine whether the
projects remain cost-effective.

        Auditor Comments.   Management was responsive to our recommendation.

Recommendation 2. Require, prior to the acquisition of future resources,
current comprehensive market analyses, including a determination of resources
planned for the region and their effect on the demand for Bonneville's
electricity.

        Management's Comments. Bonneville concurred and stated that they now
require a comprehensive cost-benefit analysis process for all new resource
purchases that includes a forecast of expected market conditions. If there
is a significant time period between initiating contract negotiations and
signing contracts, the original assumptions will be revisited to determine
whether the projects remain cost-effective.

        Auditor Comments.   Management was responsive to our recommendation.

Recommendation 3. Attempt to renegotiate the terms of the contract so that
the price paid for electrical output from the turbine facility does not
exceed expected revenues from the sale of that electricity.

        Management's Comments. Management concurred. Bonneville initially
notified the developer and other project developers that it was interested in
renegotiating price to reduce the costs of the project to bring it more in
line with current market realities in the manner in which you recommend.
However, as conditions changed and we became aware of the magnitude of load
loss and the new constraints on firming non-firm energy we were forced to
revisit our decision.
        As a result, a decision was made that Bonneville could no longer use
the output of the projects and that price was not the issue. On the basis of
these new facts we have taken more drastic action than your recommendation on
the Project.

        Due to the potential for litigation, we are unable to provide a more
detailed response to this recommendation.

       Auditor Comments.   Management was responsive to our recommendation.

Monetary Impact

The report states that Bonneville would incur about $146.8 million in
excessive costs during the first 5 years of this contract if the contract had
proceeded without change.

        Management's Comments. Bonneville agreed that the assumptions used in
the report were reasonable. However, the exact amount depends on specific
assumptions. Bonneville's cost savings as a result of its recent action will
not be known until either a settlement or litigation is concluded.


Comments on the Report

        Bonneville Power Administration would like to state for the record
that management began a review of all its acquired generating resources in
late January and began discussions with the developer's management shortly
thereafter.

        Although Bonneville did not perform a new analysis prior to signing
the combustion turbine contract, we were receiving proposals under our
Resource Contingency Program at the time the contract was signed and these
proposals were comparable in price as analyzed by Bonneville. It is now our
goal that all new resources should provide a small positive margin for
Bonneville.

        As you note in your report, there was a period of more than two years
between the start of negotiations until the contract was signed. During this
period Bonneville was statutorily required to: (a) obtain approval for the
project from the Northwest Power Planning Council as our intent was to be in
accordance with the Council's resource plan and load forecasts; and (b) to
obtain environmental approval under NEPA. Bonneville has a statutory
requirement to meet the load growth of its customers, and the project was
contracted for this purpose. Although the cost of the project was more
expensive than Bonneville's priority firm rate, it was our position that the
cost could be averaged with the cost of hydropower generation and our rates
would have remained among the lowest cost sources of firm power in the
region. During the period since this contract was signed, market conditions
for Bonneville have gone through what is probably the most dramatic change in
the Agency's history. However, shortly after the power purchase agreement
was signed, both natural gas prices and the cost of combustion turbines began
a dramatic and unexpected decline and resources became available to
Bonneville's customers at prices even lower than Bonneville's priority firm
rate. As a result, a number of Bonneville's customers have transferred their
power purchases to these less expensive resources, reducing the total load on
Bonneville and eliminating the need for new resources. In addition, the most
recent Biological Opinion has severely constrained Bonneville's ability to
firm non-firm energy as it had planned to do with the project.

        As you recommend, we now require a comprehensive cost-benefit analysis
process for all new resource purchases that includes a forecast of expected
marked conditions. If there is a significant time period between initiating
contract negotiations and signing contracts, the original assumptions will be
revisited prior to entering into the contract to determine whether the
projects remain cost-effective.

PART IV

OTHER MATTERS

Cost of Environmental Effects

        The Office of Management and Budget expressed concern in its 1992
memorandum that Bonneville's energy resource programs, which relied on
natural gas fired generation, could have an adverse environmental impact.
Natural gas fired combustion turbines may harm the environment because they
emit potentially hazardous substances such as methane, carbon dioxide,
nitrogen oxides, and sulfur dioxide. Also, both carbon dioxide and nitrogen
oxides are greenhouse gases; some scientists believe that increases in
greenhouse gases are leading to global warming. Bonneville's combustion
turbine will release approximately 432,000 tons of carbon dioxide assuming it
operates for only six months a year.

        Carbon dioxide may soon be taxed or regulated to mitigate the
environmental damage it causes. Industry officials stated that a "carbon
tax" could be imposed on carbon dioxide emissions. Accordingly, these
industry officials estimated that, for planning purposes, an additional $10
to $40 per ton of carbon dioxide emissions should be added to the cost of
combustion turbine facilities. Even at $10 per ton, Bonneville could pay an
additional $4.3 million in unnecessary costs annually for taxes or mitigation
expenses on carbon dioxide emissions.


APPENDIX A

EXCESSIVE COSTS

        Bonneville will pay excessive costs of about $20.9 million in 1997 for
output from this combustion turbine facility. The contract's high natural
gas prices will lead to electricity costs of about $.042 per kilowatt hour in
1997. Bonneville, however, can only sell this electricity for its guaranteed
rate of about $.028 per kilowatt hour. These costs per kilowatt hour equate
to total costs of about $44 million for electricity that can be sold for
about $29.8 million; the net effect of this transaction is excessive costs of
$14.2 million in 1997. In addition, the requirement to pay fixed costs of
about $.025 per kilowatt hour in order to sell hydroelectricity for an
additional $.018 per kilowatt hour equates to fixed costs of about $26
million and offsetting hydroelectric revenues of $19.3 million; the net
effect is an additional $6.7 million in excessive costs. Therefore, total
excessive costs will equal $20.9 million in 1997. With annual cost
increases, Bonneville will pay a total of about $146.8 million in excess
costs during the first 5 years as shown below.
Electricity Costs in Millions




COSTS FOR




6 MONTHS &
REVENUES AT
EXCESSIVE




INCREASING
GUARANTEED
COSTS FOR




AT 5.2 %
RATES
6 MONTHS




1997
$44.0
$29.8
$14.2




1998
$46.3
$29.8
$16.5
1999
$48.7
$29.8
$18.9


TOTAL

2000
$51.3
$29.8
$21.5


ELECTRICITY

2001
$54.0
$29.8
$24.2


AND FIXED




COSTS

Fixed Costs in Millions




 $20.9


COSTS FOR




 $24.9


6 MONTHS &
INCREASED
EXCESSIVE
 $29.1


INCREASING
REVENUES
COSTS FOR


 $33.6


AT 6.4%
FOR HYDRO
6 MONTHS


 $38.3

1997
$26.0
$19.3
$ 6.7


$146.8

1998
$27.7
$19.3
$ 8.4




1999
$29.5
$19.3
$10.2




2000
$31.4
$19.3
$12.1




2001
$33.4
$19.3
$14.1
IG Report No. DOE/IG-0379___

CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the
usefulness of its products. We wish to make our reports as responsive as
possible to our customers' requirements, and therefore ask that you consider
sharing your thoughts with us. On the back of this form, you may suggest
improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

What additional background information about the selection, scheduling,
scope, or procedures of the audit or inspection would have been helpful to
the reader in understanding this report?

What additional information related to findings and recommendations could
have been included in this report to assist management in implementing
corrective actions?

What format, stylistic, or organizational changes might have made this
report's overall message more clear to the reader?

What additional actions could the Office of Inspector General have taken on
the issues discussed in this report which would have been helpful?

Please include your name and telephone number so that we may contact you
should we have any questions about your comments.


Name___________________________
Date __________________________




Telephone______________________
Organization___________________


When you have completed this form, you may telefax it to the Office of
Inspector General at (202) 586-0948, or you may mail it to:

Office of Inspector General (IG-1)
Department of Energy
Washington, D.C. 20585
ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of
the Office of Inspector General, please contact Wilma Slaughter at (202) 586-
1924.
_
-2-



16
